           Office Of Inspector General




February 23, 2004

JERRY D. LANE
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT: Management Advisory – Conditions at Patterson Station in the Baltimore
         District (Report Number NL-MA-04-002)

During an audit of carrier productivity and the effectiveness of letter carrier operations,
we observed hazardous conditions at Patterson Station in Baltimore, Maryland
(Project Number 02YG003TD002). Government auditing standards require that
auditors report, in writing, all significant observations found in conjunction with an audit.
It is our practice to immediately advice management of significant observations,
particularly if they involve health or safety issues. The purpose of this advisory is to
confirm our verbal notification to Postal Service officials concerning Patterson Station
conditions, to document our recommendations, and to report management’s response.

Our observations, subsequent inquiries, and review of relevant documents,
revealed that Patterson Station letter carriers were exposed to hazardous conditions,
the Baltimore District unnecessarily spent $100,000 to lease Patterson Station for very
limited delivery operations, and that the Baltimore District could save $25,000 by
terminating the Patterson Station lease. Throughout the course of our work, we verbally
notified Baltimore District management of our findings. District management was very
receptive to our notifications, and immediately relocated Patterson Station delivery
operations to the Baltimore Carrier Annex, 2 miles away. In our draft report we
recommended that management identify and warn all people who may have been
exposed to asbestos at Patterson Station. We also recommended that the facility lease
be terminated. Management agreed with both recommendations. However, they also
stated that warnings were completed in 1997, and that they could not terminate the
lease until a new tenant was found.

We considered management’s comments only partially responsive. We are concerned
that people who occupied the building between 1997 and 2003 may not be aware of
their potential asbestos exposure. With regard to the lease termination, the lease
requires building defects, like walls or ceilings containing asbestos, to be repaired by
the building owner; and states that if the building owner fails to comply, the Postal
Service may, at its sole discretion, cancel the lease. Consequently, we are uncertain
why management believes lease cancellation is contingent upon finding a new tenant.
Despite our concern with management’s response, we will not pursue the matter



   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
through formal resolution at this time, but will defer such a decision until after we
evaluate the effectiveness of management’s action during our standard procedure for
closing significant recommendations. Management’s comments, and our evaluation of
their comments are included in the report.

The Office of Inspector General (OIG) considers recommendation 1 significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Joe Oliva
director, Network Operations - Logistics, at (703) 248-2100, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

cc: John A. Rapp
    William P. Galligan
    Rudolph K. Umscheid
    W. C. Miner
    Susan M. Duchek
Conditions at Patterson Station in the Baltimore District                             NL-MA-04-002




                                           INTRODUCTION
 Background                      Patterson Station, located at 1704 Gough Street, Baltimore,
                                 Maryland, was built in 1912. The Postal Service has
                                 occupied Patterson Station since 1951. A June 4, 1997,
                                 Asbestos Survey Report prepared for the Baltimore District
                                 by an environmental contractor, identified imminent risk of
                                 asbestos exposure to building occupants. A Decision
                                 Analysis Report, Alternate Quarters, Patterson Retail Unit,
                                 prepared by the Baltimore District, and dated
                                 August 6, 1999, identified overcrowded conditions, and a
                                 serious unresolved problem with rats. As a result of the
                                 Decision Analysis Report, the Postal Service moved retail
                                 operations to an alternate facility in 1999. Delivery
                                 operations were not moved. Until August 2003, the station




   Mold, mildew, and falling
  asbestos containing ceiling
   plaster in the basement.




                                 was used only for delivery operations to service 11 letter
                                 carrier routes and had only 20 personnel “on duty” at any
                                 given time. The station was located less than 2 miles from
                                 the Baltimore Carrier Annex. The annex had capacity to
                                 assimilate Patterson Station delivery operations, and district
                                 management moved delivery personnel to the annex in
                                 August 2003 after we notified them of the station’s
                                 deteriorated condition. The Postal Service leases Patterson
                                 Station for $25,000 annually.

                                 During an audit of carrier productivity and the effectiveness
                                 of letter carrier operations, we observed hazardous
                                 conditions at Patterson Station. Government auditing
                                 standards require that auditors report, in writing, all
                                 significant observations found in conjunction with an audit.



                                                       1
Conditions at Patterson Station in the Baltimore District                               NL-MA-04-002



                                 It is our practice to immediately advise management of
                                 significant observations, particularly if they involve health or
                                 safety issues.




   Basement area with trash,
 junk, and flooded conditions.




 Objective, Scope, and           The purpose of this advisory is to confirm our verbal
 Methodology                     notification to Postal Service officials concerning Patterson
                                 Station conditions, to document our recommendations, and
                                 to report management’s response. During our work, we
                                 reviewed the Patterson Station lease, the Asbestos Survey
                                 Report, and the Decision Analysis Report. We also
                                 reviewed other relevant documents including building
                                 maintenance work orders for the period August 2001
                                 through July 2003 to identify any work performed to repair
                                 or mitigate substandard conditions. We physically
                                 inspected and photographed Patterson Station, interviewed
                                 managers and employees, and identified the proximity of
                                 alternate facilities. Work associated with this advisory was
                                 conducted from June through February 2004 in accordance
                                 with the President's Council on Integrity and Efficiency,
                                 Quality Standards for Inspections. During our work, we
                                 routinely notified Postal Service officials of substandard
                                 conditions we observed, generally discussed our
                                 observations and recommendations with them, and reported
                                 their comments and specific action, where appropriate.

 Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                 objective of this review.




                                                       2
Conditions at Patterson Station in the Baltimore District                                NL-MA-04-002




                                                RESULTS
 Patterson Station                Our work revealed that Patterson Station letter carriers were
                                  exposed to hazardous working conditions; that since retail
                                  operations were moved in 1999, the Baltimore District
                                  unnecessarily spent $100,000 to lease Patterson Station;




  First floor drinking fountain
  which is leaking water over
   exposed electrical outlet.




                                  and that the Baltimore District could save $25,000 by
                                  terminating the Patterson Station lease currently due to
                                  expire in November 2004. Patterson Station delivery
                                  personnel were exposed to unsafe conditions because:

                                      •   The Baltimore District did not repair, correct, or
                                          mitigate conditions identified by the Asbestos Survey
                                          Report—or implement report recommendations.

                                      •   The Baltimore District did not correct the rat problem
                                          identified by its Decision Analysis Report.

                                      •   The Decision Analysis Report did not identify existing
                                          unsafe asbestos conditions, and consequently, the
                                          Baltimore District did not move delivery operations
                                          from Patterson Station when retail operations were
                                          moved—and did not close the facility.

                                      •   Officials did not conduct or document safety
                                          inspections.

                                  Our inspection identified visual evidence of flooding, mold,
                                  mildew, tainted water, water leaking over exposed electrical
                                  outlets, crumbling wall and ceiling plaster, ceiling structural




                                                       3
Conditions at Patterson Station in the Baltimore District                               NL-MA-04-002




                                 damage and the absence of adequate fire or other
                                 emergency escape routes.

 Asbestos Survey                 The Asbestos Survey Report documented the falling ceiling
 Report                          plaster contained asbestos. The report stated asbestos was
                                 contained in easily crumbled plaster or in other
                                 “asbestos-containing building material,” and was located
                                 throughout the building, including the basement, the first
                                 and second floor, the attic, and the stairwells. The




  Tainted water running from
    the first floor employee
        bathroom sink.




                                 report emphasized that the second floor walls and ceiling
                                 were significantly damaged, asbestos-containing debris was
                                 scattered on the floor, and the asbestos presented imminent
                                 exposure risk to building occupants. The report
                                 recommended the district:

                                      •   Seal off and restrict the high-risk second floor until
                                          asbestos-containing material was removed or other
                                          asbestos abatement measures are taken.

                                      •   Develop an asbestos management plan.

                                      •   Survey the Patterson Station for asbestos every
                                          six months to identify and correct any deteriorating
                                          conditions or potential asbestos exposure from
                                          asbestos containing material.

                                      •   Correct deteriorating conditions and potential
                                          asbestos exposure by removing asbestos or
                                          conducting other asbestos abatement measures.




                                                       4
Conditions at Patterson Station in the Baltimore District                              NL-MA-04-002




                                      •   Notify and warn employees and other building
                                          occupants about asbestos hazards.

                                      •   Train employees and other building occupants about
                                          asbestos control.

                                      •   Take corrective action as may be required.

                                      •   Document and retain asbestos management plan
                                          records.

 Decision Analysis               The Decision Analysis Report identified overcrowded
 Report                          conditions and a serious unresolved safety problem with
                                 rats. However, it did not identify the hazardous asbestos
                                 exposure problem. Management explained the Decision
                                 Analysis Report did not address the asbestos issue
                                 because a Postal Service environmental contractor took
                                 six air samples in 1998 and reported there was no asbestos
                                 identified in any of the six samples collected.

                                 Our examination of the contractor’s report revealed the
                                 contractor anticipated asbestos-containing material would
                                 be removed and that the contractor reiterated the Asbestos
                                 Survey Report recommendation that Patterson Station be
                                 inspected for asbestos every six months until the dangerous
                                 asbestos containing material was removed. Our interview
                                 with officials, our examination of pertinent records, and our
                                 inspection of the facility revealed that six-month asbestos
                                 surveys were never completed as recommended, and that
                                 the asbestos containing materials were never removed.
                                 Our examination also indicated that in 1998, the Postal
                                 Service had contingency plans and the ability to relocate all
                                 employees, including letter carriers, to other facilities.

                                 The Decision Analysis Report recommended the Postal
                                 Service relocate retail operations to a new facility to improve
                                 working conditions. However, the report specifically
                                 recommended carrier operations remain in place—and did
                                 not address the rat problem. Management explained the
                                 Decision Analysis Report did not address the rat problem
                                 because rats generally infested the areas around the facility
                                 and overwhelmed any attempts at corrective action.
                                 Management did not explain why, in the absence of a
                                 solution to the rat problem, the Decision Analysis Report




                                                       5
Conditions at Patterson Station in the Baltimore District                              NL-MA-04-002



                                 specifically recommended carrier operations remain in
                                 place—particularly since contingency safety plans to move
                                 carriers existed.

 Other Issues                    Our inspection of Patterson Station, our inquiries of
                                 managers and employees, and our analysis of building and
                                 other records revealed:

                                      •   Patterson Station was leased for $25,000 annually.

                                      •   The Baltimore Carrier Annex was located less than
                                          2 miles away and had the capacity to assimilate
                                          Patterson Station delivery operations.

                                      •   Since 1999, there was no work on the Patterson
                                          Station to inspect or correct asbestos conditions,
                                          remove asbestos, remove mold or mildew, correct
                                          flooding, eradicate rats, or determine the cause of
                                          tainted water.

                                      •   Although the high-risk second floor was sealed off,
                                          asbestos-containing material was never removed,
                                          and there were no other asbestos abatement
                                          measures taken as recommended.

                                      •   There was no asbestos management plan.

                                      •   There were no required records documenting facility
                                          surveys, deteriorating facility condition, water
                                          damage, or potential asbestos exposure.

                                      •   There were no records documenting required
                                          training, or warning building occupants about
                                          asbestos hazards.

                                      •   There was only one fire or general safety inspection
                                          completed since 1988.

                                      •   The primary front door was permanently sealed, and
                                          there was only one exit in the event of emergency.

                                 Because the Baltimore District did not move delivery
                                 operations from Patterson Station and close it, or take
                                 action to identify, repair, correct, or mitigate unsafe
                                 conditions, personnel were exposed to a hazardous



                                                       6
Conditions at Patterson Station in the Baltimore District                               NL-MA-04-002




                                 environment, and the Baltimore District incurred
                                 unnecessary cost to lease the facility.

                                 Throughout the course of our work, we verbally notified
                                 Baltimore District management of our observations and
                                 recommendations. Management was very receptive to
                                 these notifications, and took immediate steps to relocated
                                 Patterson Station delivery operations to the Baltimore




    Baltimore Carrier Annex
   located less than 2 miles
    from Patterson Station.




                                 Carrier Annex. During the fall 2003, we visited Patterson
                                 Station and verified that Postal Service had relocated carrier
                                 operations. Management stated they were removing
                                 equipment, and that the facilities lease office was
                                 negotiating lease cancellation.

 Recommendations                 We recommend the manager, Capital Metro Area:

                                      1. Identify all people who may have been exposed to
                                         asbestos conditions at the Patterson Station and to
                                         ensure those people are warned about their potential
                                         exposure, and notify the vice president, Delivery and
                                         Retail; the vice president, Facilities; and the Office of
                                         Inspector General when those actions are completed.

 Management’s                    Management agreed with our recommendation. They
 Comments                        stated that all people who may have been exposed to
                                 asbestos conditions at the Patterson Station should be
                                 identified and warned about potential asbestos exposure.
                                 They also stated that employee warnings were completed in
                                 1997, and that in October 1998, an environmental




                                                       7
Conditions at Patterson Station in the Baltimore District                               NL-MA-04-002




                                 contractor concluded there were no unsafe conditions.
                                 Management’s comments, in their entirety, are included in
                                 the appendix of this report.

 Evaluation of                   Management’s comments were only partially responsive
 Management’s                    because they did not address conditions during the nearly
 Comments                        five-year period between the October 1998 environmental
                                 test and the August 2003 carrier relocation. As we stated in
                                 our report, the contractor to whom management referred,
                                 anticipated asbestos-containing material would be removed
                                 from Patterson Station, and reiterated previous
                                 recommendations that the facility be inspected every
                                 six months until the dangerous material was removed. As
                                 we also stated, the asbestos-containing material was never
                                 removed, and the required inspections were never
                                 completed. Consequently, we are concerned that
                                 conditions between 1998 and 2003 may have become
                                 unsafe, and people who occupied the building during that
                                 period may not be aware of their potential exposure.
                                 Notwithstanding our concern, we will not pursue the matter
                                 through formal resolution at this time, but will defer such a
                                 decision until after we evaluate the effectiveness of
                                 management’s action during our standard procedure for
                                 closing significant recommendations.

 Recommendation                  We recommend the manager, Capital Metro Area:

                                      2. Complete equipment removal, terminate the facility
                                         lease, and notify the vice president, Delivery and
                                         Retail; the vice president, Facilities; and the Office of
                                         Inspector General when those actions are completed.

 Management’s                    Management agreed with our recommendation. They
 Comments                        stated that equipment was removed during the last week of
                                 December 2003, and that they requested lease termination.
                                 However, management notified us that the building owner
                                 would not release the Postal Service from the lease unless
                                 a new tenant was found—and that as of December 2003, a
                                 new tenant had not been found.




                                                       8
Conditions at Patterson Station in the Baltimore District                            NL-MA-04-002




 Evaluation of                   Management’s comments were only partially responsive.
 Management’s                    The lease requires building defects, like walls or ceilings
 Comments                        containing asbestos, to be repaired by the building owner;
                                 requires the building owner to comply with Occupational
                                 Safety and Health Standards; and states that if the building
                                 owner fails to comply, the Postal Service may, at its sole
                                 discretion, cancel the lease. Consequently, we are
                                 uncertain why management believes lease cancellation
                                 is contingent upon finding a new tenant. Notwithstanding
                                 our uncertainty, because of the amounts involved, we did
                                 not identify recommendation 2 as significant. We will not
                                 pursue resolution through the formal audit resolution
                                 process.




                                                       9
Conditions at Patterson Station in the Baltimore District   NL-MA-04-002




                     APPENDIX. MANAGEMENT’S COMMENTS




                                                      10
Conditions at Patterson Station in the Baltimore District   NL-MA-04-002




                                                      11
